APPLICATION AND
SOLICITATION
DISCLOSURE
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

APR for Balance Transfers

APR for Cash Advances

9.40% to 16.40%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
9.40% to 16.40%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
9.40% to 16.40%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

Penalty APR and When it Applies

None

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
None
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
- Transaction Fee for Purchases
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

$5.00 or 3.00% of the amount of each balance transfer, whichever is greater
$5.00 or 3.00% of the amount of each cash advance, whichever is greater
1.00% of each transaction in U.S. dollars
None
Up to $40.00
Up to $40.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (excluding new purchases) (including new balance transfers and cash
advances)."
Effective Date:
The information about the costs of the card described in this application is accurate as of: September 21,2020
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Platinum Mastercard is a secured credit card. Credit extended under this credit
card account is secured by various personal property and money including, but not limited to: (a) any goods you
purchase with this account, (b) any shares you specifically pledge as collateral for this account on a separate
Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit Union excluding
shares in an Individual Retirement Account or in any other account that would lose special tax treatment under
state or federal law, and (d) collateral securing other loans you have with the Credit Union excluding dwellings.
Notwithstanding the foregoing, you acknowledge and agree that during any periods when you are a covered
borrower under the Military Lending Act your credit card will be secured by any specific Pledge of Shares you
grant us but will not be secured by all shares you have in any individual or joint account with the Credit Union.
For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card account when you are
not a covered borrower; or (ii) you cease to be a covered borrower.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

SEE NEXT PAGE for more important information about your account.
DFCU Financial
02101062-MXC10-C-1-082620 (MXC101-E)

Other Fees & Disclosures:
Late Payment Fee:
$29.00 or the amount of the required minimum payment, whichever is less, if your payment is not made by the next
Statement Date. In the event you fail to make a payment on time in any of the six billing cycles following a violation, you
will be charged $40.00 or the amount of the required minimum payment, whichever is less.
Balance Transfer Fee (Finance Charge):
$5.00 or 3.00% of the amount of each balance transfer, whichever is greater.
Cash Advance Fee (Finance Charge):
$5.00 or 3.00% of the amount of each cash advance, whichever is greater.
Returned Payment Fee:
$29.00 or the amount of the required minimum payment, whichever is less. In the event a payment is returned in the same
or in any of the six billing cycles following a violation, you will be charged $40.00 or the amount of the required minimum
payment, whichever is less.
Card Replacement Fee:
$10.00.
Rush Fee:
$35.00.
Statement Copy Fee:
$5.00 per document.

Mastercard and the Mastercard Brand Mark are registered trademarks of Mastercard International Incorporated.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

DFCU Financial

02101062-MXC10-C-1-082620 (MXC101-E)

